HHS/OIG, Audit -"Review of Medicare Contractor's Pension Segmentation Requirements, Veritus, Inc. of Pennsylvania,"(A-07-04-00168)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Requirements, Veritus, Inc. of Pennsylvania," (A-07-04-00168)
August 17, 2004
Complete
Text of Report is available in PDF format (318 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to update Medicare segment assets from January 1, 1993 to December 31, 1997 for Veritus.  We
found that Veritus had overstated its Medicare segment pension assets by $2,379,567 as of December 31, 1997.  Veritus
should recognize Medicare segment pension assets of $9,821,687 as of December 31, 1997.  Veritus agreed with our recommendation.